APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court
of Appeals for the Seventh Circuit,
dated September 11, 2019 .................................. 1a
Final Judgment of the United States Court
of Appeals for the Seventh Circuit,
dated September 11, 2019 ................................ 15a
Opinion of the United States Bankruptcy Court
for the Central District of Illinois,
dated August 20, 2018...................................... 17a
Order of the United States Bankruptcy Court
for the Central District of Illinois,
dated August 20, 2018...................................... 38a
REHEARING ORDERS
Amended Order of the United States Court of
Appeals for the Seventh Circuit Denying
Petition for Rehearing and for Rehearing En
Banc, dated October 15, 2019 .......................... 40a
Order of the United States Court of Appeals for
the Seventh Circuit Denying Petition for
Rehearing and for Rehearing En Banc, dated
October 10, 2019 ............................................... 42a

APPENDIX TABLE OF CONTENTS (Cont.)
STATUTORY PROVISIONS
Relevant Statutory Provisions ............................... 44a
11 U.S.C. § 544(a)
810 ILCS 5/1-103
810 ILCS 5/9-502
810 ILCS 5/9-504
810 ILCS 5/9-108

App. 1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT,
DATED SEPTEMBER 11, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-3291
________________________
IN RE: I80 EQUIPMENT, LLC,

Debtor,
FIRST MIDWEST BANK,
v.

Plaintiff-Appellant,

JEANA K. REINBOLD, not individually
but solely in her capacity as Chapter 7 Trustee
of the Estate of I80 Equipment, LLC,

Defendant-Appellee.

________________________

Appeal from the United States Bankruptcy Court
for the Central District of Illinois. Nos. 18-08003 &
17-81749—Thomas L. Perkins,
Chief Bankruptcy Judge.
Argued April 9, 2019—Decided September 11, 2019
Before KANNE, BARRETT,
and BRENNAN, Circuit Judges

App. 2a
BRENNAN, Circuit Judge.
This interlocutory bankruptcy appeal presents
a matter of first impression for our court: whether
Illinois’s version of Article 9 of the Uniform Commercial Code requires a financing statement to contain
within its four corners a specific description of secured
collateral, or if incorporating a description by reference to an unattached security agreement sufficiently
“indicates” the collateral. The bankruptcy court ruled
that a financing statement fails to perfect a security
interest unless it “contains” a separate and additional
description of the collateral. Given the plain and
ordinary meaning of the Illinois statute, and how courts
typically treat financing statements, we disagree and
reverse.
I
The facts necessary to resolve this appeal are
straightforward. The debtor, I80 Equipment, LLC, is
a business in Illinois that purchased and refurbished
trucks for resale. I80 Equipment obtained a commercial
loan from First Midwest Bank. To ensure repayment,
the parties executed an agreement on March 9, 2015,
which granted First Midwest a security interest in
substantially all of I80 Equipment’s assets. These were
described in twenty-six listed categories of collateral,
such as accounts, cash, equipment, instruments, goods,
inventory, and all proceeds of any assets.1 To perfect
its interest in I80 Equipment’s assets, First Midwest
timely filed a financing statement with the Illinois
1 See Complaint for Declaratory Judgment, Exh. B at 2–4, In re
I80 Equipment, No. 17-81749 (Bankr. C.D. Ill. 2018), ECF No. 1
(full description of collateral in the security agreement).

App. 3a
Secretary of State. The financing statement purported
to cover “[a]ll Collateral described in First Amended
and Restated Security Agreement dated March 9,
2015 between Debtor and Secured Party.”
Two years later, I80 Equipment defaulted on the
loan and filed a voluntary bankruptcy petition under
Chapter 7. The court appointed a trustee to manage
the bankruptcy assets. First Midwest sued the trustee,
seeking to recover $7.6 million on the loan. It also
filed a declaration that its security interest in I80
Equipment’s assets was properly perfected and senior
to the interests of all other claimants, including the
trustee. The trustee countered that First Midwest’s
security interest was not properly perfected because
its financing statement did not independently describe
the underlying collateral, but instead incorporated
the list of assets by reference to the parties’ security
agreement. The trustee also asserted a counterclaim
to avoid First Midwest’s lien pursuant to § 544(a) of
the Bankruptcy Code.2 Both parties moved for judgment on the pleadings.
The bankruptcy court agreed with the trustee and
ruled that “[a] financing statement that fails to contain any description of collateral fails to give the particularized kind of notice” required by Article 9 of the
UCC. With First Midwest’s consent, the trustee sold
the estate’s assets for approximately $1.9 million and
2 Section 544(a) of the Bankruptcy Code empowers a trustee to
avoid interests in the debtor’s property that are unperfected as
of the petition date. 11 U.S.C. § 544(a); see also 4 WILLIAM L.
NORTON, NORTON BANKRUPTCY LAW & PRACTICE § 63:2
(3d ed. 2019). This is commonly referred to as the trustee’s
“strong-arm power,” which a debtor in possession can exercise
under § 1107(a). See NORTON, supra, at § 63:4.

App. 4a
holds the net proceeds pending resolution of this
dispute. The parties jointly certified under 28 U.S.C.
§ 158(d)(2)(A) that an immediate appeal of the bankruptcy court’s decision to this court would materially
advance the progress of the case, and this court granted
the parties’ petition.
On appeal, neither the validity of the loan nor
the legitimacy of First Midwest’s security interest is
in question. The trustee maintains only that First
Midwest’s lien is avoidable because the financing statement failed to properly indicate the secured collateral,
and First Midwest disagrees.
II
We review de novo questions of statutory interpretation. In re Robinson, 811 F.3d 267, 269 (7th Cir.
2016); United States v. Webber, 536 F.3d 584, 593 (7th
Cir. 2008). When answering a novel question of state
law, we look to “relevant state precedents, analogous
decisions, considered dicta, scholarly works, and any
other reliable data tending convincingly to show how
the highest court in the state would decide the issue
at hand.” Pisciotta v. Old Nat’l Bancorp, 499 F.3d
629, 635 (7th Cir. 2007). Here, we apply the UCC as
interpreted by Illinois courts and governed by Illinois
law. See In re Blanchard, 819 F.3d 981, 984 (7th Cir.
2016); see also Helms v. Certified Packaging Corp.,
551 F.3d 675, 678 (7th Cir. 2008).
In Illinois courts, statutory construction starts with
the statutory language itself. People v. Grant, 52
N.E.3d 308, 313 (Ill. 2016). If that language—given

App. 5a
its plain and ordinary meaning3—is clear and unambiguous,4 “the court must give it effect and should not
look to extrinsic aids for construction.” In re Robinson,
811 F.3d at 269; see also Home Star Bank & Fin. Servs.
v. Emergency Care & Health Org., 6 N.E.3d 128, 135
(Ill. 2014) (when construing a statute, “[i]t is improper
for a court to depart from the plain statutory language
by reading into the statute exceptions, limitations, or
conditions that conflict” with the expressed text);
LaSalle Bank Nat’l v. Cypress Creek 1, LP, 950 N.E.2d
1109, 1113 (Ill. 2011) (when plain language is “clear and
unambiguous, we will apply it as written”); Webber, 536
F.3d at 593 (“When the plain wording of the statute
is clear, that is the end of the matter.”).
We can give statutes their plain and ordinary
meaning by applying contemporaneous dictionary
definitions, Landis v. Marc Realty, LLC, 919 N.E.2d
300, 304 (Ill. 2009), and by reading the statutes in
their entirety. Home Star Bank, 6 N.E.3d at 135
(statutory “[w]ords and phrases should not be viewed
in isolation, but should be considered in light of other
relevant provisions of the statute”). As the Illinois
Supreme Court has explained: “A court must view the
statute as a whole, construing words and phrases in
3 We assume a word carries its everyday meaning, “unless the
context counsels otherwise.” See Webber, 536 F.3d at 593; see
also ANTONIN SCALIA & BRYAN A. GARNER, READING LAW: THE
INTERPRETATION OF LEGAL TEXTS 69–70 (2012). Sometimes a
word may require a more technical or rare understanding, but
more frequently a term takes on its natural and obvious use.
See SCALIA & GARNER, supra, at 70.
4 When interpreting the text of a statute, we start with the
premise that laws generally are clear and unambiguous. See
generally SCALIA & GARNER, supra note 3, at 29–40.

App. 6a
light of other relevant statutory provisions and not in
isolation. Each word, clause, and sentence of a statute
must be given a reasonable meaning, if possible, and
should not be rendered superfluous.” People v. Perez,
18 N.E.3d 41, 44 (Ill. 2014) (citation omitted); see also
In re Melching, 589 B.R. 846, 848–52 (Bankr. S.D. Ill.
2018) (court considered “the entire statutory scheme”
when interpreting Illinois exemption statute). We apply
these principles of interpretation to the statutes in
this case.
A
At issue here is the text of Article 9 of the UCC,
810 ILL. COMP. STAT. 5/9-101, et seq. (2001). In
relevant part, § 9-502 requires that a financing statement: (1) provide the name of the debtor; (2) provide
the name of the secured party or its representative;
and (3) indicate the collateral covered by the financing
statement (emphasis added).
According to § 9-504, “[a] financing statement sufficiently indicates the collateral that it covers if the
financing statement provides: (1) a description of the
collateral pursuant to Section 9-108; or (2) an indication
that the financing statement covers all assets or all
personal property.” Section 9-108 further explains
that a description of the secured property does not need
to be specific but must “reasonably identif[y]” what is
described. Section 9-108 gives six distinct methods by
which a description of collateral reasonably identifies
the secured property: (1) specific listing; (2) category;
(3) type; (4) quantity; (5) mathematical computation
or allocation; or (6) “any other method, if the identity
of the collateral is objectively determinable” (emphasis
added).

App. 7a
A financing statement that substantially satisfies
these requirements is effective, even if it has minor
errors or omissions that are not “seriously misleading.”
810 ILL. COMP. STAT. 5/9-506(a). But if a financing
statement fails these basic requirements, the lender’s
interests are subject to avoidance under § 544(a) of
the Bankruptcy Code.
We must decide whether the statutory language of
Article 9 requires that the four corners of the financing statement include a specific description of the
secured collateral (either by type, category, quantity,
etc.), or if incorporating such a description by reference
to a security agreement sufficiently “indicates” the
collateral.
The text of § 9-108 provides six ways to indicate
collateral in a financing statement—including by
“any other method”—so long as the identity of the
collateral is “objectively determinable.” This expands
the pre-2001 Article 9 requirements under which a
financing statement must: (1) give the name of the
debtor or the secured party; (2) be signed by the debtor;
(3) include the secured party’s address; and (4) contain

a statement indicating the types, or describing the
items, of collateral. See 810 Ill. Comp. Stat. 5/9-402(1)
(2001) (emphasis added).

In 2001, the Illinois version of the UCC was
revised to no longer require that the financing statement “contain” a description of the collateral; after
revision the statement must only “indicate” collateral.
Under the revisions, “[a]n indication may satisfy the
requirements of Section 9-502(a), even if it would not
have satisfied the requirements of former Section 9402(1).” 810 ILL. COMP. STAT. Ann. 5/9-504 cmt. 2.

App. 8a
This pared-down approach reflects the notice function of
Article 9:
This section adopts the system of “notice
filing.” What is required to be filed is not, as
under pre-UCC chattel mortgage and conditional sales acts, the security agreement itself,
but only a simple record providing a limited
amount of information (financing statement).
. . . The notice itself indicates merely that a
person may have a security interest in the
collateral indicated. Further inquiry from the
parties concerned will be necessary to disclose
the complete state of affairs.
810 Ill. Comp. Stat. Ann. 5/9-502 cmt. 2 (emphasis
added).5 With this context, the ordinary meaning of
“indicate” is to serve as a “signal” that “point[s] out”
or “direct[s] attention to” an underlying security
interest.6 That plain reading of the text allows a
5 This comment sheds light on the scope of the statute: to provide notice to third parties of any security interest that exists,
or may exist in the future, in the described collateral. The
statute does not state whether a security agreement should be
attached to a filed financing statement, but it does note that the
security agreement itself need not be filed, and that the financing
statement is only a simple record of the security agreement
with a limited amount of information. Under § 9-210(a)(3), the
debtor may provide its lender with a list of what the debtor
believes to be the collateral securing the lender’s interest and
request that the lender approve or correct it within 14 days. The
lender is neither required nor precluded from sending the
underlying security agreement, as the purpose of the request is
merely to provide “information” to the debtor about his secured
obligations. See 810 ILL. COMP. STAT. ANN. 5/9-210 cmt. 2.
6 Webster’s defines indicate as: (1) “to direct attention to; point
to or point out; show”; (2) “to be or give a sign, token, or indication

App. 9a
party to “indicate” collateral in a financing statement
by pointing or directing attention to a description of
that collateral in the parties’ security agreement.
This interpretation reflects how we and other
courts have understood the UCC’s notice function.
For example, we have recognized that Article 9 ensures
“adequate public notice” of liens and security interests,
In re Blanchard, 819 F.3d 981, 988 (7th Cir. 2016),
and that “the goal of the filing system is to make
known to the public whatever outstanding security
interests exist in the property of debtors.” Id. at 986
(citing In re Hoeppner, 49 B.R. 124 (Bankr. E.D. Wis.
1985)); see also Helms v. Certified Packaging Corp.,
551 F.3d 675, 679 (7th Cir. 2008) (“The purpose of the
financing statement is to put third parties on notice
that the secured party who filed it may have a
perfected security interest in the collateral described,
and that further inquiry into the extent of the security
interest is prudent.”) (citations and quotations omitted);
In re Grabowski, 277 B.R. 388, 391 (Bankr. S.D. Ill.
2002) (holding the same). This is so Article 9 does not
“create a windfall for a bankruptcy estate or a minefield
of; signify; betoken”; (3) “to show the need for; call for; make
necessary”; (4) “to point to as the required treatment”; (5) “to
express briefly or generally.” Indicate, WEBSTER’S NEW WORLD
COLLEGE DICTIONARY (4th ed. 2001). American Heritage Dictionary
defines the term as: (1) “[t]o show the way to or the direction of;
point out”; (2) “[t]o serve as a sign, symptom, or token of; signify”;
(3) “[t]o suggest or demonstrate the necessity, expedience, or advisability of”; (4) “[t]o state or express briefly.” Indicate, THE
AMERICAN HERITAGE DICTIONARY (4th ed. 2000). And MerriamWebster’s defines indicate as: (a) “to point out or point to”; (b)
“to be a sign, symptom, or index of”; (c) “to demonstrate or
suggest the necessity or advisability of”; (d) “to state or express
briefly.” Indicate, MERRIAM-WEBSTER’S COLLEGIATE DICTIONARY
(11th ed. 2003).

App. 10a
for lenders.” In re Blanchard, 819 F.3d at 988–89
(citation omitted).
The financing statement itself is an “abbreviation
of the security agreement.” Helms, 551 F.3d at 679.
“It is a streamlined paper to be filed for the purpose
of giving notice to third parties of the essential contents
of the security agreement.” Id. (citation omitted); see
also Grabowski, 277 B.R. at 391 (financing statement
not required to share same level of detail as security
agreement).
The security agreement defines and limits the
collateral, while the financing statement puts third
parties on notice that a creditor may have an existing
security interest in the property and further inquiry
may be necessary. In re Grabowski, 277 B.R. at 391.
In recognizing this distinction between financing
statements and security agreements, this court has
said:
The purpose of the financing statement is to
place would-be subsequent creditors on notice
that a creditor has a security interest in the
debtor’s property; it is the security agreement . . . that defines that interest and by
defining limits it. . . . The security agreement
embodies the intention of the parties and is
the document which creates the security
interest. . . . The financing statement on the
other hand need not particularize in detail
the collateral secured under the security
agreement because in accordance with the
“notice filing” concept adopted under the
[UCC] a financing statement serves to give
notice that the secured party who filed may
have a security interest in the collateral and

App. 11a
that further inquiry with respect to the
security agreement will be necessary to disclose the complete state of affairs.

Helms, 551 F.3d at 680 (citations and quotations

omitted). “Hence less detail is required in the financing
statement.” Id.
While financing statements and security agreements both must describe the collateral, “the degree
of specificity required of such description depends on
the nature of the document involved—whether it is a
security agreement or a financing statement . . . .” In re
Grabowski, 277 B.R. at 390–91. The “prudent potential
creditor would [] request[] a copy of the security
agreement,” Helms, 551 F.3d at 680, and “need look
no further than the security agreement” to resolve
questions about the adequacy of the collateral description. Id. at 681. The different treatment of these two
documents highlights the distinct function each serves
under Article 9: the financing statement provides
notice of an underlying security interest, while the
security agreement creates and specifically defines
that interest.
B
Bankruptcy courts for all three districts in
Illinois have recognized this distinction and have
noted that incorporation by reference is an available
method for describing collateral. The Southern District of Illinois bankruptcy court has held that a
financing statement was sufficient to perfect a bank
lender’s interest “[d]espite the generality of the Bank’s
description” of collateral. In re Grabowski, 277 B.R.
at 392. In Grabowski, Bank of America filed a
financing statement indicating it had a lien on the

App. 12a
debtor’s property consisting of “all inventory, chattel
paper, accounts, equipment, and general intangibles.”
Id. at 391-92. The court rejected the subsequent creditor’s argument that the description was “too general,”
finding it still “fulfill[ed] the notice function of a
financing statement under the UCC,” even though the
financing statement misstated the debtor’s property
address and did not otherwise specifically identify the
security interest. Id. at 392. The court noted that “only
a super-generic” description—such as “all the debtor’s
assets” or “all the debtor’s personal property” without
any limiting factor—is insufficient under the reasonable identification standard of § 9-108. Id. at 391. The
court found “[t]his exceedingly general standard for
describing collateral in a financing statement” reflects
the traditional notice function a financing statement
was designed to serve. Id.
The Central District of Illinois bankruptcy court
in In re Duesterhaus Fertilizer ruled that a financing
statement with a collateral description incorporated
by reference to the previous financing statement was
insufficient under Article 9 because the previous
statement had lapsed. 347 B.R. 646 (Bankr. C.D. Ill.
2006). The new financing statement included “no indication of collateral whatsoever,” and even the reference to the previous, lapsed statement did not specify
that a description of the collateral subject to the
security interest could be found there. Id. at 650.
Even so, the court embraced incorporation by reference as an available method for indicating collateral,
at least in new or “continuing” financing statements:
“Absent an express state law requirement that the
continuation statement contain a description of collateral, reference to another document in the same public

App. 13a
record would appear to meet the notice requirements.”
Id. at 651.
Two years before In re Duesterhaus, the bankruptcy court for the Northern District of Illinois suggested
incorporation by reference may satisfy the UCC’s
collateral description requirements for financing statements. In re Macronet Group, Ltd., 2004 WL 2958447
(Bankr. N.D. Ill. 2004). Ultimately the court held that
the lender’s security interest failed to attach to the
debtor’s collateral. Id. at *5. But that decision was
based on the absence of an authenticated underlying
security agreement from which the identity of the
collateral could be objectively determined, not the
lender’s choice to indicate the collateral by reference
to the agreement. Id. (“[I]t may be true that incorporating a collateral description in a separate document,
such as a form financing statement, by reference into a
security agreement could qualify as ‘any other method’
of identification pursuant to UCC section 9-108 . . . .”).
The approach of these courts to financing statements supports the conclusion that incorporation by
reference is permissible in Illinois as “any other method”
under § 9-108, so long as the identity of the collateral
is objectively determinable. That requirement is met
here by the security agreement’s detailed list of the
collateral. The financing statement covers: “All Collateral described in First Amended and Restated Security Agreement dated March 9, 2015 between Debtor
and Secured Party.” There is no dispute that the
financing statement names (as terms defined earlier
in the document) both the debtor (I80 Equipment)
and the secured party (First Midwest). The statement has not lapsed and includes the date and
precise title of the underlying document. It describes

App. 14a
the security interest by referencing “[a]ll [c]ollateral”
as described in the underlying security agreement
between the parties. For its part, the security agreement references twenty-six independent categories of
collateral covered by the agreement, including accounts,
cash, equipment, goods, financial assets, deposits,
investments, instruments, inventory, and all proceeds
of any assets. Although a subsequent creditor is not
expected to be a “super-detective” while investigating
prior secured transactions, In re Grabowski, 277 B.R.
at 392, the financing statement in this case “notif[ied]
subsequent creditors that a lien may exist and that
further inquiry [was] necessary to disclose the complete
state of affairs.” Id. at 391 (quotations omitted).
III
The plain and ordinary meaning of Illinois’s
revised version of the UCC allows a financing statement to indicate collateral by reference to the description in the underlying security agreement. This interpretation is reinforced by how Illinois bankruptcy courts
construe these statutes. For these reasons, we hold
that the trustee is not entitled to avoid First Midwest’s
lien under the Bankruptcy Code.
We REVERSE and REMAND for further proceedings in the bankruptcy court.

App. 15a
FINAL JUDGMENT OF THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT,
DATED SEPTEMBER 11, 2019
UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT
No. 18-3291
________________________
IN RE: I80 EQUIPMENT, LLC,

Debtor,
FIRST MIDWEST BANK,
v.

Plaintiff-Appellant,

JEANA K. REINBOLD, not individually but solely
in her capacity as Chapter 7 Trustee of the
Estate of I80 Equipment, LLC,

Defendant-Appellee.

________________________

Before Michael S. KANNE, Circuit Judge
Amy C. BARRETT, Circuit Judge
Michael B. BRENNAN, Circuit Judge
Originating Case Information:
Bankruptcy Case Nos: 18-08003 & 17-81749
Central District of Illinois, Peoria-BK
Bankruptcy Judge Thomas L. Perkins

App. 16a
We REVERSE and REMAND, with costs, for further proceedings in the bankruptcy court.
The above is in accordance with the decision of this
court entered on this date.

App. 17a
OPINION OF THE UNITED STATES
BANKRUPTCY COURT FOR THE
CENTRAL DISTRICT OF ILLINOIS,
DATED AUGUST 20, 2018
SIGNED THIS: August 20, 2018
/s/ Thomas L. Perkins
Thomas L. Perkins
United States Bankruptcy Judge
________________________
UNITED STATES BANKRUPTCY COURT
CENTRAL DISTRICT OF ILLINOIS
________________________
IN RE: I80 EQUIPMENT, LLC,

Debtor,
________________________
Case No. 17-81749
________________________
FIRST MIDWEST BANK,
v.

Plaintiff.

JEANA K. REINBOLD, NOT INDIVIDUALLY BUT
SOLELY IN HER CAPACITY AS CHAPTER 7
TRUSTEE OF THE ESTATE OF
I80 EQUIPMENT, LLC,

Defendant.

App. 18a
________________________
Adv. No. 18-8003
________________________
JEANA K. REINBOLD, NOT INDIVIDUALLY BUT
SOLELY IN HER CAPACITY AS CHAPTER 7
TRUSTEE OF THE ESTATE OF
I80 EQUIPMENT, LLC,
v.

Counter-Plaintiff.

FIRST MIDWEST BANK,

Counter-Defendant.
OPINION
This matter is before the Court on cross motions
for Judgment on the Pleadings filed by the Plaintiff,
First Midwest Bank, and the Defendant, Jeana K.
Reinbold, as Chapter 7 Trustee for the estate of I80
Equipment, LLC. The cross motions are addressed to
both Count I of the complaint seeking declaratory
relief and to the related amended counterclaim asserted
by the Trustee.1 The issue concerns the perfection of
First Midwest’s security interest in the assets of the
Debtor, I80 Equipment, LLC.
I80 Equipment, LLC, operated a commercial business whereby it purchased and refurbished bucket
1 Count II of the Bank’s complaint, seeking injunctive relief,
was dismissed without prejudice pursuant to a stipulation of
the parties filed Feb. 9, 2018, and Amended Order entered Feb.
13, 2018.

App. 19a
trucks for resale. Prior to the Debtor’s bankruptcy
filing, First Midwest made a commercial loan to the
Debtor. On March 9, 2015, the Debtor executed a First
Amended and Restated Loan Agreement and a First
Amended and Restated Security Agreement in favor of
First Midwest Bank, granting a security interest in
twenty-six specifically identified categories of collateral,
including accounts, chattel paper, equipment, general
intangibles, goods, instruments and inventory and all
proceeds and products thereof. The Debtor owns no
real estate and the security interest granted First
Midwest covers substantially all of the Debtor’s assets.
First Midwest filed its Financing Statement on April
3, 2015, with the Illinois Secretary of State, describing
its collateral as “All Collateral described in First
Amended and Restated Security Agreement dated
March 9, 2015 between Debtor and Secured Party.”2
The Debtor defaulted under the terms of the loan in
November, 2017. First Midwest’s proof of claim states
that it is owed more than $7.6 million.
On December 6, 2017, the Debtor filed a voluntary petition for relief under Chapter 7, whereupon
Jeana K. Reinbold was appointed Trustee. First
Midwest brought this action against her, seeking a
declaratory judgment that its security interest in the
collateral of the Debtor is properly perfected and
senior to the interest of all other claimants, including
2 The TRUSTEE points out that First Midwest had filed an
earlier financing statement on March 10, 2014, in conjunction
with a previous security agreement, which described the collateral
in a similar fashion as “All Collateral described in Security
Agreement dated March 10, 2014 between Debtor and Secured
Party.” That financing statement will share the same fate as
the later-filed statement, as the analysis is identical.

App. 20a
the Trustee. By her amended answer, the Trustee
denies that First Midwest’s security interest was
properly perfected and asserts an amended counterclaim in exercise of her strong-arm powers pursuant
to section 544(a) of the Bankruptcy Code, to avoid
First Midwest’s lien.3 Both parties filed motions for
judgment on the pleadings which have been fully briefed
and are presently before the Court for decision. With
the consent of First Midwest, the Trustee sold the
assets of the estate for $1,862,806 and is holding the
net proceeds pending this Court’s decision.
Under Federal Rule of Civil Procedure 12(c),
applicable to this proceeding by Bankruptcy Rule 7012
(b), a motion for judgment on the pleadings may be
used to dispose of a case based upon the underlying
substantive merits when the material facts are not in
dispute. In this role, the appropriate standard is that
applicable to motions for summary judgment. Alexander
v. City of Chicago, 994 F.2d 333 (7th Cir. 1993).
When reviewing a motion for summary judgment, all
facts and inferences are to be viewed in a light most
favorable to the non-moving party. The motion is
properly granted where the material facts are undisputed and the movant is entitled to judgment as a
matter of law. Flora v. Home Fed. Savings & Loan
Ass’n, 685 F.2d 209 (7th Cir. 1982).
Courts have routinely held that creditors may
incorporate by reference security agreements into
financing statements, where the security agreement
is identified in and filed with the financing statement,
3 Section 544(a) of the Bankruptcy Code empowers a bankruptcy
trustee to avoid interests in the debtor’s property that are
unperfected as of the filing of the petition.

App. 21a
and that such incorporation satisfies the collateral
description requirements for financing statements
under Article 9 of the Uniform Commercial Code
(UCC). See In re The Holladay House, Inc, 387 B.R.
689, 696 (Bankr. E.D. Va. 2008)(citing cases), aff’d, 2008
WL 4682770 (E.D. Va.). First Midwest takes the
position that a financing statement’s identification of
the security agreement as the document containing
the description of the collateral, without filing it as
part of the financing statement and without setting
forth any collateral description in the financing statement, is nevertheless sufficient to perfect its security
interest. The parties agree that no published opinion
by any court addresses this exact issue.
The parties agree that there is no dispute concerning the material facts and that the sole issue for
decision by the Court is whether First Midwest has
properly perfected its security interest. That issue
is governed by Revised Article 9 of the Uniform
Commercial Code, adopted in Illinois in 2001. 810
ILCS 5/9-101, et.seq. As a general rule, applicable here,
an attached security interest is perfected by the filing
of a UCC-1 financing statement. 810 ILCS 5/9-310(a).
Prior to the adoption of Revised Article 9, former
Illinois UCC section 9-402(1) provided that a financing
statement was sufficient if it contained a statement
indicating the types, or describing the items, of collateral. Under Revised Article 9, the issue of whether
and in what manner collateral must be described in a
financing statement is governed by sections 9-502, 9504 and 9-108.
Section 9-502(a), setting forth the mandatory
requirements for the information that must be included

App. 22a
in a financing statement, provides that the contents
of the financing statement are sufficient only if it:
(1) provides the name of the debtor;
(2) provides the name of the secured party or a
representative of the secured party; and
(3) indicates the collateral covered by the financing statement.
810 ILCS 5/9-502(a). The controversy here, involving
only the third requirement, is whether a statement
that the collateral is described in the underlying security agreement sufficiently “indicates the collateral.”
Elaborating on the indication of collateral, Section
9-504 provides that a financing statement sufficiently
indicates the collateral it covers if the financing
statement provides:
(1) a description of the collateral pursuant to
Section 9-108; or
(2) an indication that the financing statement
covers all assets or all personal property.
810 ILCS 5/9-504. First Midwest is not contending that
its financing statement indicates that it covers all
assets or all personal property.
Section 9-108, which governs the sufficiency of
description of the collateral for both security agreements
and financing statements, provides:
(a) Sufficiency of description. Except as otherwise
provided in subsections (c), (d), and (e), a description
of personal or real property is sufficient, whether or
not it is specific, if it reasonably identifies what is
described.

App. 23a
(b) Examples of reasonable identification. Except
as otherwise provided in subsection (d), a description
of collateral reasonably identifies the collateral if it
identifies the collateral by:
(1) specific listing;
(2) category;
(3) except as otherwise provided in subsection (e), a type of collateral defined
in the Uniform Commercial Code;
(4) quantity;
(5) computational or allocational formula
or procedure; or
(6) except as otherwise provided in subsection (c), any other method, if the
identity of the collateral is objectively
determinable.
(c) Supergeneric description not sufficient. A
description of collateral as “all the debtor’s assets” or
“all the debtor’s personal property” or using words of
similar import does not reasonably identify the
collateral.
First Midwest contends that its financing statement is sufficient under section 9108(b)(6) as an “other
method” of reasonably identifying its collateral, asserting that the identity of its collateral is “objectively
determinable” by an examination of the amended
security agreement, which is identified by its date.
Arguing that the concept of inquiry notice should be
applied broadly, First Midwest maintains that subsequent creditors are clearly placed on notice that
the Debtor’s property, or some of it, is subject to a

App. 24a
prior lien and that further inquiry need be made to
ascertain the extent of the collateral covered by the
amended security agreement. The justification offered
for this result is premised upon the “notice filing”
system adopted by Article 9, under which the purpose behind the filing of a financing statement is
merely to provide notice to third-party creditors that
property of the debtor may be subject to a prior
security interest, and that further inquiry may be
necessary to determine the identity of the collateral.
The Trustee, in support of her motion for judgment
on the pleadings, maintains that First Midwest’s
financing statement is deficient under the above
provisions of Revised Article 9. She contends that the
mere reference to the collateral as being described
in the amended security agreement does not suffice
to indicate, describe or reasonably identify any collateral. The Trustee asserts that the plain language of
the applicable statutory provisions mandates that a
financing statement contain a description of the
property that is the collateral, which description is
sufficient if it reasonably identifies the collateral.
The collateral cannot be “reasonably identified” under
sections 9-108(a) and (b), if the financing statement
makes no attempt to describe it at all. Relying on the
long-standing principle that the security agreement
and the financing statement are “double screens”
through which the secured party’s rights to collateral
are determined, the Trustee maintains that a financing
statement must contain a stand-alone description of
the collateral, which can be put to that test.
The Trustee advocates that the meaning of “any
other method” as used in section 9-108(b)(6) is best
discerned by applying the rule of ejusdem generis,

App. 25a
meaning of the same kind, class or nature. The Trustee
relies upon People v. Capuzi, 20 Ill.2d 486 (1960), in
which the Illinois Supreme Court set forth the principle
that where a statute specifically enumerates several
classes of persons or things and includes at the end of
such enumeration an additional, more general, class
of “other” persons or things, the doctrine of ejusdem
generis instructs that the word “other” be interpreted
relatively narrowly to mean “of a like kind” or “similar
to” the specifically enumerated classes of persons or
things. Id. at 493-94. The Trustee contends that since
the enumerated list set forth in section 9-108(b)(1)
through (5) sets forth examples of acceptable methods
of stating a description of the collateral in a financing
statement, and is followed immediately by the sixth
alternative “any other method, if the identity of the
collateral is objectively determinable,” under the
doctrine of ejusdem generis this last class should be
read, in like manner, as referring to alternative ways
of describing the collateral.
Since the collateral description rules set forth in
section 9-108 apply to both a security agreement and
a financing statement, it is important to recognize at
the outset that the differing purposes of the two
documents has resulted in different standards being
applied to the collateral descriptions contained therein.
The requirement that the security agreement reasonably describe the collateral serves an evidentiary
purpose, that is to create an enforceable security
interest in clearly identified property of the debtor and
to set forth enforceable contract terms and covenants
respecting that interest and the collateral. See 810
ILCS 5/9-203, Uniform Commercial Code Comment
5. The purpose of a financing statement is to put third

App. 26a
parties on notice that the secured party who filed it
may have a perfected security interest in the collateral
described, and that further inquiry into the extent of
the security interest is prudent. Magna First Nat.
Bank & Trust v. Bank of Illinois, 195 Ill.App.3d
1015, 1019 (1990). While it is permissible for the
financing statement to describe the collateral with
the same specificity as the security agreement, it is
not necessary. Whereas the full extent of the security
interest must be set forth in the security agreement,
the financing statement is often an abbreviated or
streamlined version “for the purpose of giving notice
to third parties of the essential contents of the
security agreement.” Helms v. Certified Packaging
Corp., 551 F.3d 675, 679 (7th Cir. 2008) (citing 1
Eldon H. Reiley, Security Interests in Personal Property § 7:3, pp.7-3 to 7-4 (3d ed. 1999)).
The Illinois Code Comment to an earlier version
of Article 9 explained, with respect to the difference
in the level of specificity of description of the collateral
between a financing statement and the security agreement, that “[t]he security agreement and the financing
statement are double screens through which the
secured party’s rights to collateral are viewed, and
his rights are measured by the narrower of the two.”
Ill.Ann.Stat. ch. 26, § 9-110, Illinois Code Comment
at p. 85 (Smith-Hurd 1974). The “double screen”
concept has been adopted by Illinois courts. See AllisChalmers Corp. v. Staggs, 117 Ill.App.3d 428, 433
(1983). Thus, it is widely recognized on one hand,
that a financing statement may not enlarge a security
interest by describing property not included in the
security agreement, and on the other hand, that if a
financing statement fails to describe some or all of

App. 27a
the property listed in the security agreement, the
security interest is not perfected as to the omitted
property. See Matter of Martin Grinding & Mach.
Works, Inc., 793 F.2d 592, 594-95 (7th Cir. 1986); In
re JII Liquidating, Inc., 341 B.R. 256, 274-75 (Bankr.
N.D. Ill. 2006).
Beginning with the most general statutory provision, it is mandatory under section 9-502(a) that
the financing statement “indicates the collateral.”
Next, section 9-504 provides that the indication of
the collateral is sufficient if the financing statement
contains a description of the collateral permitted
under section 9-108 or if it contains a supergeneric
description of all assets or all personal property.
First Midwest does not contend that its financing
statement contains a permissible supergeneric description. Finally, section 9-108(a), entitled “[s]ufficiency of
description,” provides that “a description of personal or
real property is sufficient, whether or not it is specific, if it reasonably identifies what is described.” Section
9-108(b) then provides examples of descriptions that
reasonably identify the collateral and thus are
deemed to constitute sufficient descriptions.
Taken together, these three statutory sections
establish a roadmap for perfection as it pertains to
collateral description. The financing statement must
indicate the collateral, which may be sufficiently
accomplished by following the guidance of section 9108, which sets forth several options for describing
the property that is the collateral. These three sections
are each addressing, plainly and unambiguously, the
same subject: the description of the property that is
the collateral. Section 9-108 expressly addresses the
sufficiency of the description of the collateral. As stated

App. 28a
therein, the reasonable identification standard set
forth in section 9-108(a) applies, not to the financing
statement in a general way, but specifically to the
“description of personal or real property.” By its plain
language, section 9-108(a) requires, in order to pass
the sufficiency test, that the “description” of the
property used in the document “reasonably identify”
the property to which it refers. It follows that the
reasonable identification standard cannot be met if
the financing statement does not contain a description
of the property.
Likewise, the starting point for interpreting the
phrase “any other method” used in section 9-108(b)(6),
is to note its placement in section 9-108, which is
narrowly targeted toward the sufficiency of the “description of personal or real property.” The phrase “any
other method” as well as the same sentence’s usage of
“objectively determinable,” must be construed in the
context of its placement in section 9-108 and specifically in paragraph (b) of that section, which provides
specific examples of descriptions of collateral that
meet the reasonable identification standard. Those
examples are all variations on the same theme: how to
sufficiently describe the collateral.
The test for the sufficiency of “any other method,”
is whether the identity of the collateral is “objectively
determinable” from the descriptive terms used in the
document, in our case the financing statement.4 This
4 In order to bring the meaning of § 9-108(b)(6) more clearly to
the reader’s eye by reconstructing its syntax, the pertinent portion
may be read as “a description of collateral reasonably identifies
the collateral if [the description] identifies the collateral by . . . any
other method, [as long as] the identity of the collateral is
objectively determinable [from the description].” It is apparent

App. 29a
follows from the language and structure of sections 9108(a) and (b), the broader context afforded by sections
9-502 and 9-504, and is consistent with the interpretational doctrine of ejusdem generis advocated by
the Trustee. It is readily apparent that the “double
screen” concept implemented in the earlier version of
Article 9, which incorporates a requirement of two
separate collateral descriptions to achieve perfection,
has been reinforced and expanded upon in Revised
Article 9 through the adoption of sections 9-502, 9504 and 9-108.
This Court agrees with the Trustee that First
Midwest’s financing statement does not describe the
collateral. Rather, it attempts to incorporate by reference the description of collateral set forth in a separate
document, not attached to the financing statement.
The financing statement, on its face, provides no information whatsoever, and therefore no notice to any
third party, as to which of the Debtor’s assets First
Midwest is claiming a lien on, which is the primary
function of a financing statement.
Neither party cites any Illinois case law that
addresses the kind of incorporation by reference method
used by First Midwest. Two bankruptcy court opinions
are instructive, where each court rejected a creditor’s
argument that a financing statement’s reference to
the underlying security agreement was a sufficient
description of collateral. Applying Revised Article 9
as a matter of Wisconsin law in In re Lynch, 313 B.R.
798 (Bankr. W.D. Wisc. 2004), the bankruptcy court
was faced with a financing statement that described
that “any other method” is correctly construed to mean any
other method of describing the collateral.

App. 30a
the collateral as “general business security agreement
now owned or hereafter acquired.” The security agreement was not filed with the financing statement. The
secured party argued that the description was sufficient because all that is required of a financing statement is to put third parties on notice of the existence
of a security interest. Awarding judgment to the
trustee, the court rejected this argument, determining
that the statute clearly requires that the collateral must
be described and that simply identifying the description
at issue did not identify or describe any of the
collateral and thus failed to put third parties on
notice as to which property of the debtor was subject
to the security interest.
A similar issue was addressed by a Kentucky
bankruptcy court in In re Lexington Hospitality Group,
LLC, 2017 WL 5035081 (Bankr. E.D. Ky.). The financing statement at issue described some, but not all, of
the categories of assets covered by the security agreement. The financing statement also included the
following sentence: “[t]his Financing Statement also
relates to an obligation secured by a security interest
in collateral and is evidenced by the Mortgage referred
to above and the All-Assets Security Agreement executed on September 28, 2015.” The creditor argued that
the reference to the “All-Assets Security Agreement”
was sufficient to constitute a supergeneric description
permitted under section 9-504(2), so that the security
interest in the collateral not specifically listed in the
financing statement was nonetheless perfected. The
court rejected this argument, reasoning that a reference to a document does not describe what is in the
document, and holding that the reference to the
security agreement alone did not constitute the required

App. 31a
description of the collateral. Cf. In re Duesterhaus
Fertilizer, Inc., 347 B.R. 646 (Bankr. C.D. Ill. 2006)
(Gorman, J.) (determining a financing statement’s
cross-reference to an unattached prior financing statement to be an insufficient description of collateral
under section 9-502).
First Midwest’s First Amended Security Agreement takes a security interest in substantially all of
the Debtor’s personal property. In accordance with
section 9-504(2), which permits the use of a supergeneric description in a financing statement, First
Midwest could have perfected its security interest by
indicating its collateral in the financing statement as
“all assets” or “all personal property.” The Uniform
Commercial Code Comment to section 9-504 refers to
the supergeneric description alternative as a “safe
harbor” that “expands the class of sufficient collateral
references” in order to accommodate the common
practice of debtors granting a security interest in all
or substantially all of their assets.
In support of its motion, First Midwest relies on
Chase Bank of Florida, N.A. v. Muscarella, 582 So.2d
1196 (Fla. Dist. Ct. App. 1991)(applying prior version
of Article 9 under Florida law), involving a priority
dispute between two creditors, each of whom had
been granted a security interest in the debtor’s rights
as a general partner in a Florida limited partnership.
A security interest was first granted to Chase Bank,
who filed a financing statement that described the
collateral as property listed on an attached schedule,
which further provided:
“All of the Debtor’s right, title and interest, in
the “Collateral” as more particularly defined
and described in that certain Assignment of

App. 32a
Partnership Interest and Security Agreement
dated January 20, 1987, up to an amount
not to exceed $600,000.”
Reversing the lower court’s determination that the
collateral description was not sufficient, the appellate
court, applying an inquiry notice standard, reasoned
that the financing statement’s reference to the Assignment of Partnership Interest was enough to put
subsequent creditors on notice that the collateral may
include an assignment of the debtor’s share in the
profits and distributions of the limited partnership.
Presumably, if the financing statement had not specifically referred to the Assignment of Partnership
Interest, the description would have been insufficient.
Therefore, the Muscarella opinion does not stand for
the proposition that it is sufficient for a financing
statement to merely refer to the underlying security
agreement and thereby incorporate by reference that
document’s collateral description. Instead, Muscarella
is correctly interpreted as a case where the court
determined that an adequate indication of the specific
collateral in question, the debtor’s partnership interest,
was set forth in the financing statement itself.
First Midwest also relies on In re Amex-Protein
Dev. Corp., 504 F.2d 1056 (9th Cir. 1974), involving a
creditor’s failure to have the debtor sign a security
agreement, where the court considered whether a
promissory note and a financing statement, in combination, were sufficient to meet the requirements for a
security agreement under the California Commercial
Code. The note provided that “[it] is secured by a
Security Interest in subject personal property as per
invoices.” The financing statement filed by the creditor
listed five specific items of collateral and, as required

App. 33a
by the statute in effect at that time, was signed by
the debtor. The court concluded that the note, by
stating the intent of the parties to create a security
interest and incorporating the subject invoices by
reference, along with the more specific description of
collateral contained in the financing statement, satisfied
the requirement of a written security agreement signed
by the debtor. The court determined that, with respect
to a security agreement, parol evidence would be admissible in order to help define the items of collateral that
the parties intended to be covered by the security
interest. The court also quoted with approval the
following discussion of the doctrine of incorporation
by reference:
“There is nothing in the Uniform Commercial
Code to prevent reference in the security
agreement to another writing for particular
terms and conditions of the transaction. There
is also nothing in the Uniform Commercial
Code to prevent reference in the security
agreement to another writing for a description
of the collateral, so long as the reference in
the security agreement is sufficient to identify
reasonably what it described. In other words,
it will at times be expedient to give a general
description of the collateral in the security
agreement and refer to a list or other writing
for more exact description. In addition the
security agreement could itself consist of
separate parts, one a general description of
the obligation secured and the rights and
duties of the parties, and the other a description of the collateral, both such writings being
signed by the debtor and stated to comprise

App. 34a
a single security agreement or referring to
each other.”

Amex-Protein Dev. Corp., 504 F.2d at 1060 (citing 44
Cal.Jur.2d Rev. Secured Transactions § 109 at 38788).
Decided under a prior version of the Uniform
Commercial Code, Amex-Protein stands for the propositions, first, that a signed promissory note and a
signed financing statement, taken together under the
composite documents doctrine, may satisfy the requirements for a valid security agreement and, second, a
security agreement may incorporate by reference a
specific description of the collateral contained in a
separate document so long as the security agreement
contains at least a general description of the collateral.
This opinion in no way supports First Midwest’s
contention here, that a financing statement that contains no description of the collateral may instead simply
incorporate by reference the collateral description
contained in an unfiled security agreement and thereby meet the requirements for an effective financing
statement under the applicable provisions of Revised
Article 9. The composite document doctrine is simply
not applicable in the context of a financing statement.
By way of comparison, it is well established that
parol evidence may not be used to expand the description of collateral or otherwise alter the unambiguous
language of a security agreement. Matter of Martin
Grinding & Mach. Works, Inc., 793 F.2d 592 (7th Cir.
1986)(neither financing statement nor loan documents
may expand security interest beyond that stated in
unambiguous security agreement); Signal Capital Corp.
v. Lake Shore Nat. Bank, 273 Ill.App.3d 761, 769 (Ill.

App. 35a
App. 1 Dist. 1995). A narrow exception has been recognized for the admission of parol evidence to clarify an
ambiguous collateral description contained in a security
agreement. Citizens Bank and Trust v. Gibson Lumber
Co., 96 B.R. 751 (W.D. Ky. 1989); In re Keene Corp.,
188 B.R. 881 (Bankr. S.D.N.Y. 1995). Thus, errors
and omissions in the description of collateral in a
security agreement are not generally “correctable” as
against third parties through extraneous evidence,
instead requiring execution of an amended security
agreement.
Similarly, extraneous evidence is not admissible
in a priority dispute to correct errors and omissions
in a financing statement or to clarify ambiguities. In
order to fulfill the purpose of the notice filing system,
a financing statement must stand on the description
of collateral contained within the four corners of the
filed document, including any filed attachments. Given
that the description of collateral in a financing statement cannot, for purposes of perfection, be corrected or
expanded upon by reference to the underlying security
agreement, the same policy dictates that the collateral
description may not be supplied in its entirety by
reference to the assets described in an unfiled security
agreement. Revised Article 9 clearly and unambiguously requires a collateral description be included as
part of the filed financing statement. See In re Lynch,
313 B.R. at 800.
Likewise, First Midwest’s theory that a broad
form of inquiry notice should be applied is contradicted
by the statutory requirement that the financing statement contain a collateral description. While notice to
third parties and the possibility of further inquiry are
certainly to be expected in some instances under Article

App. 36a
9’s notice filing system of perfection, the concept of
inquiry notice is more particularized than First Midwest acknowledges. First Midwest theorizes that its
financing statement is sufficient because it gives
notice that First Midwest has obtained a security
interest in property of the Debtor which, while not
identified in any way in the financing statement,
may be readily identified, i.e., “objectively determined,”
by a further inquiry directed toward the security
agreement identified in the financing statement.
The statutory provisions, however, make clear
that the notice required to be given by a financing
statement is notice of the specific items of collateral
themselves, of the kinds or types of property subject
to the security interest, or that the debtor has granted
a blanket lien on “all assets” or “all personal property.”
A financing statement that fails to contain any
description of collateral fails to give the particularized kind of notice that is required of the financing
statement as the starting point for further inquiry.
Other courts recognize that the mere filing of a
financing statement does not trigger a duty for third
parties to inquire into the terms of the underlying
security agreement. Rather, it is only when the
financing statement contains a sufficient description
of the collateral that the duty to pursue further
inquiry arises. Holladay House, 387 B.R. at 696; In re
I.A. Durbin, 46 B.R. 595, 601 (Bankr. S.D. Fla. 1985).
By authorizing usage of a supergeneric description
in financing statements, the drafters of Revised Article
9 drew a line in the sand at that point for the most
general type of collateral description that could be
used in order to sufficiently indicate the collateral.
The drafters could have gone one step further by

App. 37a
authorizing a mere reference to the underlying security
agreement as an acceptable method of identifying the
collateral. They did not do so, however, and neither
will this Court.
For those reasons, this Court determines (and
predicts that the Illinois Supreme Court would hold)
that First Midwest failed to perfect its security
interest and the Trustee is entitled to avoid its lien in
the exercise of her strong-arm powers under section
544(a) of the Bankruptcy Code. Accordingly, the Trustee
is entitled to judgment on the pleadings on Count I of
the complaint and on her amended counterclaim.
This Opinion constitutes this Court’s findings of
fact and conclusions of law pursuant to Rule 7052 of
the Federal Rules of Bankruptcy Procedure. A separate
judgment order will be entered.

App. 38a
ORDER OF THE UNITED STATES
BANKRUPTCY COURT FOR THE
CENTRAL DISTRICT OF ILLINOIS,
DATED AUGUST 20, 2018
SIGNED THIS: August 20, 2018
/s/ Thomas L. Perkins
Thomas L. Perkins
United States Bankruptcy Judge
________________________
UNITED STATES BANKRUPTCY COURT
CENTRAL DISTRICT OF ILLINOIS
________________________
IN RE: I80 EQUIPMENT, LLC,

Debtor,
________________________
Case No. 17-81749
________________________
FIRST MIDWEST BANK,
v.

Plaintiff,

JEANA K. REINBOLD, NOT INDIVIDUALLY BUT
SOLELY IN HER CAPACITY AS CHAPTER 7
TRUSTEE OF THE ESTATE OF
I80 EQUIPMENT, LLC,

Defendant.

App. 39a
________________________
Adv. No. 18-8003
________________________
JEANA K. REINBOLD, NOT INDIVIDUALLY BUT
SOLELY IN HER CAPACITY AS CHAPTER 7
TRUSTEE OF THE ESTATE OF
I80 EQUIPMENT, LLC,
v.

Counter-Plaintiff.

FIRST MIDWEST BANK,

Counter-Defendant.
ORDER
For the reasons stated in an Opinion filed by this
day, IT IS HEREBY ORDERED:
1. The Motion for Judgment on the Pleadings
filed by First Midwest Bank is DENIED;
2. The Motion for Judgment on the Pleadings
filed by Jeana K. Reinbold, Trustee, as Defendant
and Counter-Plaintiff is GRANTED; and
3. Judgment is entered in favor of the Trustee
and against First Midwest Bank on Count I of the
Complaint and on the Amended Counterclaim.

App. 40a
AMENDED ORDER OF THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
DENYING PETITION FOR REHEARING
AND FOR REHEARING EN BANC,
DATED OCTOBER 15, 2019
UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT
October 10, 2019
AMENDED October 15, 2019

Before
Michael S. KANNE, Circuit Judge
Amy C. BARRETT, Circuit Judge
Michael B. BRENNAN, Circuit Judge
No. 18-3291
IN RE: I80 EQUIPMENT, LLC,

Debtor,
FIRST MIDWEST BANK,
v.

Plaintiff-Appellant,

JEANA K. REINBOLD, not individually but solely
in her capacity as Chapter 7 Trustee of the
Estate of I80 Equipment, LLC,

Defendant-Appellee.

App. 41a
Appeal from the United States Bankruptcy Court
for the Central District of Illinois
Nos. 18‐08003 & 17‐81749
Thomas L. Perkins,
Chief Bankruptcy Judge.
ORDER
On consideration of the petition for rehearing and
for rehearing en banc filed by defendant‐appellee on
September 25, 2019, no judge in active service has
requested a vote on the petition for rehearing en
banc, and all judges on the original panel have voted
to deny rehearing.
Accordingly, the petition for rehearing is DENIED.

 Circuit Judges Daniel A. Manion, Ilana Diamond Rovner and
Kenneth F. Ripple took no part in the consideration of the petition
for rehearing en banc.

App. 42a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
DENYING PETITION FOR REHEARING AND
FOR REHEARING EN BANC,
DATED OCTOBER 10, 2019
UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT
No. 18-3291
October 10, 2019

Before
Michael S. KANNE, Circuit Judge
Amy C. BARRETT, Circuit Judge
Michael B. BRENNAN, Circuit Judge
________________________
IN RE: I80 EQUIPMENT, LLC,

Debtor,
FIRST MIDWEST BANK,
v.

Plaintiff-Appellant,

JEANA K. REINBOLD, not individually but solely
in her capacity as Chapter 7 Trustee of the
Estate of I80 Equipment, LLC,

Defendant-Appellee.

________________________

Appeal from the United States Bankruptcy Court
for the Central District of Illinois
Nos. 18‐08003 & 17‐81749
Thomas L. Perkins,
Chief Bankruptcy Judge.

App. 43a
On consideration of the petition for rehearing and
for rehearing en banc filed on September 25, 2019, no
judge in active service has requested a vote on the
petition for rehearing en banc, and all judges on the
original panel have voted to deny rehearing.
Accordingly, the petition for rehearing is DENIED.

App. 44a
RELEVANT STATUTORY PROVISIONS
FEDERAL STATUTE
11 U.S.C. § 544
Trustee as lien creditor and as successor to certain
creditors and purchasers
(a) The trustee shall have, as of the commencement
of the case, and without regard to any knowledge
of the trustee or of any creditor, the rights and
powers of, or may avoid any transfer of property
of the debtor or any obligation incurred by the
debtor that is voidable by—
(1) a creditor that extends credit to the debtor
at the time of the commencement of the
case, and that obtains, such time and with
respect to such credit, a judicial lien on all
property on which a creditor on a simple
contract could have obtained such a judicial
lien, whether or not such a creditor exists;
(2) a creditor that extends credit to the debtor at
the time of the commencement of the case,
and obtains, at such time and with respect to
such credit, an execution against the debtor
that is returned unsatisfied at such time,
whether or not such a creditor exists; or
(3) a bona fide purchaser of real property, other
than fixtures, from the debtor, against whom
applicable law permits such transfer to be
perfected, that obtains the status of a bona
fide purchaser and has perfected such transfer
at the time of the commencement of the
case, whether or not such a purchaser exists.

App. 45a
PROVISIONS OF THE ILLINOIS UNIFORM COMMERCIAL
CODE AND THE UNIFORM COMMERCIAL CODE,
COMPARISON OF RELATED PROVISIONS
810 ILCS 5/1-103
Illinois Uniform Commercial Code § 1-103.
Construction of Uniform Commercial Code to promote
its purposes and policies; applicability of supplemental
principles of law.
(a) The Uniform Commercial Code must be
liberally construed and applied to promote its
underlying purposes and policies, which are:
(1) to simplify, clarify, and modernize the law
governing commercial transactions;
(2) to permit the continued expansion of commercial practices through custom, usage, and
agreement of the parties; and
(3) to make uniform the law among the various
jurisdictions.
Uniform Commercial Code § 1-103.
Construction of Uniform Commercial Code to Promote
its Purposes and Policies: Applicability of Supplemental
Principles of Law.
(a) The Uniform Commercial Code must be
liberally construed and applied to promote its
underlying purposes and policies, which are: (1) to
simplify, clarify, and modernize the law governing
commercial transactions; (2) to permit the continued expansion of commercial practices through
custom, usage, and agreement of the parties; and
(3) to make uniform the law among the various
jurisdictions.

App. 46a
810 ILCS § 5/9-502
Illinois Uniform Commercial Code § 9-502.
Sec. 9-502. Contents of financing statement; record
of mortgage as financing statement; time of filing
financing statement.
(a) Sufficiency of financing statement. Subject
to subsection (b), a financing statement is
sufficient only if it:
(1) provides the name of the debtor;
(2) provides the name of the secured party
or a representative of the secured party;
and
(3) indicates the collateral covered by the
financing statement.
Uniform Commercial Code § 9-502.
Contents of Financing Statement; Record of Mortgage
as Financing Statement; Time of Filing Financing
Statement
(a) [Sufficiency of financing statement.]
Subject to subsection (b), a financing statement is
sufficient only if it:
(1) provides the name of the debtor;
(2) provides the name of the secured party
or a representative of the secured party;
and
(3) indicates the collateral covered by the
financing statement.

App. 47a
810 ILCS 5/9-504
Illinois Uniform Commercial Code § 9-504.
A financing statement sufficiently indicates the
collateral that it covers if the financing statement
provides:
(1) a description of the collateral pursuant to
Section 9-108; or
(2) an indication that the financing statement
covers all assets or all personal property.
Uniform Commercial Code § 9-504.
Indication of Collateral.
A financing statement sufficiently indicates the
collateral that it covers if the financing statement
provides:
(1) a description of the collateral pursuant to
Section 9-108; or
(2) an indication that the financing statement
covers all assets or all personal property.
810 ILCS 5/9-108
Illinois Uniform Commercial Code § 9-108.
Sufficiency of description.
(a) Sufficiency of description. Except as otherwise
provided in subsections (c), (d), and (e), a description of personal or real property is sufficient,
whether or not it is specific, if it reasonably
identifies what is described.
(b) Examples of reasonable identification. Except
as otherwise provided in subsection (d), a description of collateral reasonably identifies the
collateral if it identifies the collateral by:

App. 48a
(1) specific listing;
(2) category;
(3) except as otherwise provided in subsection (e), a type of collateral defined
in the Uniform Commercial Code;
(4) quantity;
(5) computational or allocational formula or
procedure; or
(6) except as otherwise provided in subsection (c), any other method, if the
identity of the collateral is objectively
determinable.
Uniform Commercial Code § 9-108.
Sufficiency of Description.
(a) [Sufficiency of description.]
Except as otherwise provided in subsections (c),
(d), and (e), a description of personal or real
property is sufficient, whether or not it is specific,
if it reasonably identifies what is described.
(b) [Examples of reasonable identification.]
Except as otherwise provided in subsection (d), a
description of collateral reasonably identifies the
collateral if it identifies the collateral by:
(1) specific listing;
(2) category;
(3) except as otherwise provided in subsection (e), a type of collateral defined
in [the Uniform Commercial Code];

App. 49a
(4) quantity;
(5) computational or allocational formula or
procedure; or
(6) except as otherwise provided in subsection (c), any other method, if the
identity of the collateral is objectively
determinable.

